<html>
<title> - FIVE YEARS LATER: AN ASSESSMENT OF THE POST-KATRINA EMERGENCY MANAGEMENT REFORM ACT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
     FIVE YEARS LATER: AN ASSESSMENT OF THE POST-KATRINA EMERGENCY 
                              MANAGEMENT 
                               REFORM ACT

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
                        PREPAREDNESS, RESPONSE,
                           AND COMMUNICATIONS

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 25, 2011

                               __________

                           Serial No. 112-53

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                  U.S. GOVERNMENT PRINTING OFFICE
73-740                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a2c5d2cde2c1d7d1d6cac7ced28cc1cdcf8c">[email&#160;protected]</a>  


                               __________

                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Kathleen C. Hochul, New York
Billy Long, Missouri                 Janice Hahn, California
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

                  Gus M. Bilirakis, Florida, Chairman
Joe Walsh, Illinois                  Laura Richardson, California
Scott Rigell, Virginia               Hansen Clarke, Michigan
Tom Marino, Pennsylvania, Vice       Kathleen C. Hochul, New York
    Chair                            Bennie G. Thompson, Mississippi 
Blake Farenthold, Texas                  (Ex Officio)
Peter T. King, New York (Ex 
    Officio)
                   Kerry A. Kinirons, Staff Director
                   Natalie Nixon, Deputy Chief Clerk
            Curtis Brown, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida, and Chairman, Subcommittee on Emergency 
  Preparedness, Response, and Communications.....................     1
The Honorable Laura Richardson, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Emergency Preparedness, Response, and Communications...........     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     3

                               Witnesses

Mr. W. Craig Fugate, Administrator, Federal Emergency Management 
  Agency, U.S. Department of Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7

                                Appendix

Questions From Ranking Member Laura Richardson for W. Craig 
  Fugate.........................................................    33


     FIVE YEARS LATER: AN ASSESSMENT OF THE POST-KATRINA EMERGENCY 
                         MANAGEMENT REFORM ACT

                              ----------                              


                       Tuesday, October 25, 2011

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:59 a.m., in 
Room 311, Cannon House Office Building, Hon. Gus M. Bilirakis 
[Chairman of the subcommittee] presiding.
    Present: Representatives Bilirakis, Marino, Farenthold, 
Richardson, Clarke, Hochul, and Thompson (ex officio).
    Mr. Bilirakis. The Subcommittee on Emergency Preparedness, 
Response, and Communications will come to order. The 
subcommittee is meeting today to receive testimony from 
Administrator Fugate on the progress FEMA has made since the 
enactment of the Post-Katrina Emergency Management Reform Act 5 
years ago.
    I now recognize myself for an opening statement. I want to 
welcome Administrator Fugate to the subcommittee. Welcome, sir. 
We appreciate you appearing before us and I thank you for your 
flexibility in scheduling this hearing.
    FEMA certainly has had a busy year with a record number of 
major disaster declarations. You have responded to tornadoes, 
hurricanes, flooding, wildfires, and severe winter storms. A 
number of Members of Congress on this committee represent areas 
that were impacted by natural disasters this year and we thank 
you for all of FEMA's efforts.
    This hearing is a follow-up on a field hearing the 
subcommittee held in Clearwater, Florida, which of course is in 
my district, in June, at which we received testimony from State 
and local emergency management officials and the Red Cross. The 
witnesses gave their perspective on the Post-Katrina Emergency 
Management Reform Act and working with FEMA, and let us know 
what is working well and gave us their suggestions for 
improvements that could be made.
    Today we continue that discussion, of course, with 
Administrator Fugate. I am pleased to note, Administrator 
Fugate, that your response to these recent disasters has 
received positive feedback from the Members and emergency 
management officials with whom I have spoken. That is good news 
and it is in some cases due to the authorities in the Post-
Katrina Emergency Management Reform Act, which was signed into 
law just over 5 years ago on October 4, 2006.
    I think we can all agree that FEMA has come a long way 
since Hurricane Katrina, but we have, of course--we know that 
there is always room for improvement.
    Administrator Fugate, I am particularly interested in your 
assessment of what is working well with FEMA, what 
requirements, again, of the Post-Katrina Emergency Management 
Reform Act could be working better, and what new authorities 
would enhance your ability to prepare for, respond to, and 
assist in the recovery from disasters.
    A topic also worth discussing is efforts to mitigate 
damages to homes and businesses before disaster strikes. I am 
pleased that you mentioned this in your testimony, your written 
testimony.
    As Benjamin Franklin said, ``An ounce of prevention is 
worth a pound of cure.'' That is why I have introduced the 
Hurricane and Tornado Mitigation Investment Act of 2011, which 
would provide incentives to individuals and business owners to 
make improvements to their property that will help mitigate 
hazards. These efforts can help reduce loss of life and 
property damage, speed recovery, and also save money in the 
long run. Administrator Fugate, thank you again for appearing 
here today and I look forward to your testimony.
    The Chairman now recognizes the Ranking Minority Member, 
Ms. Richardson from California, for any statement she may have.
    Ms. Richardson. Good morning. Thank you, Mr. Bilirakis, for 
convening this hearing to evaluate FEMA's progress in 
implementing the mandates of the Post-Katrina Emergency 
Management Reform Act. I would also like to thank Administrator 
Fugate for appearing before the subcommittee today. I look 
forward to hearing your assessment of FEMA's present ability to 
manage effective emergency preparedness and response efforts.
    We are here today because just over 6 years ago, Hurricane 
Katrina ravaged the Gulf Coast and was a sobering test of our 
Comprehensive Emergency Management System. History reports that 
FEMA failed that test. As a Nation we learned how ill-equipped 
the Federal Government was to manage disaster recovery and 
response activities. Determining who is in charge, who should 
coordinate Federal, State, and local response efforts, what 
resources are available and how to acquire the needed supplies 
efficiently was not done well.
    In the mean time, a Nation watched television coverage of 
this horrific disaster. Ironically, television news crews were 
able to get to the scene, but relief supplies were not.
    In response, Congress enacted the Post-Katrina Emergency 
Reform Act. Although the bill was not perfect, it made much-
needed changes to our emergency response infrastructure, 
notably extreme line emergency preparedness and response 
operations, by consolidating all components of the 
Comprehensive Emergency Management System into the Federal 
Emergency Management Agency. It established a clear chain of 
command for disaster response activities by giving a Federal 
coordinating officer, FCO, statutory authority to head disaster 
response coordination. It directed FEMA to administer grants 
and guidance to State and local governments to improve their 
preparedness capabilities. It established something that you 
have been known for, Administrator Fugate, for implementing. It 
established 10 regional offices charged with coordinating with 
State and local governments and nongovernmental organizations 
to develop effective regional disaster preparedness and 
response plans.
    The Post-Katrina Emergency Management Reform Act directed 
you, Administrator Fugate, to appoint the disability 
coordinator to ensure that vulnerable populations have access 
to and knowledge of and means to evacuate emergency housing and 
any other necessary resources in the event of a major disaster.
    Under your leadership, FEMA has made progress in 
implementing the Post-Katrina Emergency Management Reform Act. 
For example, you have taken significant steps in implementing 
the integrated public alert and warning system, which I am a 
strong proponent of, which will facilitate effective public 
warnings regarding future disasters. These warnings will give 
people like those in American Samoa the opportunity to seek 
safe shelter in the wake of a major disaster.
    Despite the progress 5 years after the enactment of the 
Post-Katrina Emergency Management Reform Act, significant gaps 
remain in our comprehensive emergency response system. I am 
concerned that a combination of budget cuts and other obstacles 
will hinder our ability to realize our preparedness goals. For 
example, another issue of particular importance to me is one 
that I would like to address later in my questions, 
specifically regarding the disability coordinator and whether 
that coordinator has the adequate resources to carry out the 
responsibilities of this act. This coordinator was appointed in 
June 2009; however, in the full year 2011, the Office of 
Disability Coordinator had a budget of just $150,000, and I 
asked about this last year. There was no request for additional 
funding in the full year 2012 budget request. I am concerned 
that this budgetary amount may be the clear sign of the 
priorities FEMA places on the mission of this office.
    I would be interested to hear your comments on this issue, 
and others, regarding IPAWS as this hearing progresses. Again, 
I thank you for being here today and I look forward to your 
testimony.
    Mr. Bilirakis. Thank you.
    I now recognize the Ranking Minority Member of the full 
committee, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman. Thank you 
for holding this hearing to review the Post-Katrina Emergency 
Management Reform. A perfect storm is a popular expression. It 
describes an event where isolated conditions merge to create a 
radically worsening situation. In the process, deep and 
profound problems are revealed. Katrina was a perfect storm. 
Hurricane Katrina's devastation of the Gulf Coast revealed a 
Federal emergency management structure that was disorganized, 
uncoordinated, and seemed uncaring.
    In the aftermath of the storm, numerous investigations led 
to suggested changes in the organizational structure and the 
culture of FEMA. These changes were not to be merely window 
dressing. FEMA clearly needed to find a way to fulfill its 
mission, improve the response, and regain the trust of the 
American people.
    Congress acted and passed a Post-Katrina Emergency 
Management Reform Act. Five years after the passage of that 
legislation, I think we can all agree that FEMA's 
implementation of the legislation is a mixed bag. Improvements 
were made, but challenges remain. I am pleased that 
Administrator Fugate is here today to report on both the 
improvements and the remaining challenges. I look forward to 
hearing his testimony.
    But before we get to Mr. Fugate, I want to take this 
opportunity to talk about disaster relief. I hope that we can 
all agree that funding for disaster relief should never be held 
hostage to political ideology. When a hurricane, wildfire, 
earthquake, strikes a community, it does not ask about party 
affiliation. This is why I was troubled to read that some on 
the other side of the aisle are now accusing this 
administration of using the Federal disaster declaration 
process as a way to turn low-cost storms into Federal 
disasters. Instead of addressing the underlying need to ensure 
adequate money in the disaster relief fund, claims are being 
made that the act of declaring a disaster is some kind of 
political game. They are saying that declaring a disaster is 
simply a way to drain FEMA's aid from the Federal Government, 
weaken the capacities of the States to respond to disasters 
without Federal help, and divert FEMA from preparing for 
catastrophic events. These are conspiracy theories worthy of a 
Tom Clancy novel.
    So before we begin this hearing, let me set the record 
straight. In 2010, there were 81 major disaster declarations. 
In 2009, there were 59 major disaster declarations. While the 
numbers are clear, the reasons for the increases are subject to 
interpretation. It could be more disaster declarations occurred 
because more disasters have occurred. It could also be more 
disaster declarations occurred because States were stretched 
thin; budgets are seeking disaster assistance.
    It is unlikely that FEMA is forcing States to take disaster 
declaration funding. But whatever the reason, given the 
increase in disaster declaration, a compassionate Congress 
would hear the cries of those who have lost everything and 
provide help. Instead, this Congress has called for fiscal 
discipline. FEMA's budget for management and preparedness 
program has decreased. FEMA's management budget was reduced by 
$10 million between fiscal year 2010 and fiscal year 2011. 
FEMA's pre-disaster mitigation fund was cut from $100 million 
in fiscal year 2010 to $50 million in fiscal year 2011. FEMA's 
Grant Program Directorate was cut from $4.165 billion in fiscal 
year 2010 to $3.38 billion in fiscal year 2011. This is a 
situation that is not sustainable.
    As we move forward, I am hopeful we can focus on the facts 
and provide the help that people in the United States truly 
need. Mr. Chairman, I thank you for calling today's hearing and 
I yield back.
    Mr. Bilirakis. Thank you, Mr. Thompson.
    Other Members of the subcommittee are reminded that opening 
statements may be submitted for the record.
    I am pleased to once again welcome Administrator Fugate, of 
course, before our subcommittee today. Mr. Fugate was appointed 
by President Obama to serve as the administrator of the Federal 
Emergency Management Agency and was confirmed by the United 
States Senate on May 13, 2009. Prior to coming to FEMA, Mr. 
Fugate served as the director of the Florida Division Emergency 
Management, a position he held for 8 years.
    Mr. Fugate began his emergency management career as a 
volunteer firefighter, emergency paramedic, and finally as a 
lieutenant with the Alachua County Fire Rescue. Mr. Fugate and 
his wife hail from Gainesville, Florida.
    Administrator Fugate, your entire written statement will 
appear in the record. I ask that you summarize your testimony, 
please. You are now recognized, sir.

STATEMENT OF W. CRAIG FUGATE, ADMINISTRATOR, FEDERAL EMERGENCY 
    MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Fugate. Thank you, Mr. Chairman and Ranking Member 
Richardson and Ranking Member Thompson. Staff spent a lot of 
time coming up with a bunch of facts and figures on how we have 
gotten better and how we have improved under the Post-Katrina 
Reform Act. After I kind of read it, I kind of took the 
approach that I also heard today: We have done a lot, we still 
have got a lot to do. So I want to focus on what I think are 
some of the key elements of the Post-Katrina Emergency 
Management Reform Act and how they played out in the last 
couple of years that I have been here in response to disasters.
    I think one of the key things that came out of that Act was 
we were able to move away from utilizing only the Stafford Act 
as a tool to look at how we prepare and respond to disasters. 
That is important, because if you look at the Stafford Act, you 
must wait until you have a request from a Governor. It then has 
to go through the process and determined from the President 
whether or not to declare a disaster, and then you begin the 
elements of that response.
    But as we saw in Katrina, as we have seen in other 
disasters up and down the seaboard this year across numerous 
river floods that reached records, if you wait until it is that 
bad, the response will take time. This is one of the things, 
really, I think we spent a lot of time in FEMA trying to 
educate our own staff, that we no longer start with the 
Stafford Act. It is not our enabling legislation. It is the 
Post-Katrina Emergency Management Reform Act. It establishes 
FEMA. It establishes our mission. It establishes our 
structures, including the regional office structure, including 
the findings of many activities that we are to engage in and 
prepare for in recovery, respond, and mitigate activities.
    But I think it is most important that we recognize that 
access. In the likelihood that an event would be declared or 
would potentially require Federal assistance, the Federal 
Government must not wait until a Governor request identifies 
that they are overwhelmed. It says we shall be prepared and 
will begin response with the tools that we have, including the 
ability to use, as Ranking Member Thompson spoke about, the 
disaster relief fund prior to the President getting a formal 
request from a Governor.
    Now, this may seem rather bureaucratic, but I think it is 
important that if you wait until you know how bad something is 
to begin a response, you have lost time. You have to be able to 
respond in those events that are likely to require Federal 
assistance by anticipating needs, not waiting for formal 
assessments nor waiting until the full impacts are realized. 
Other aspects of that allows us to do things such as pre-
staging teams or equipment in areas that we think will need 
help.
    When you look at what happened with Hurricane Irene, we 
were actually starting down on the Virgin Islands and in Puerto 
Rico. Then as it approached the U.S. East Coast, everywhere 
from Florida to Maine and inland, as we saw in Vermont, were 
potentially going to be impacted by this hurricane. We didn't 
wait until the States had made formal requests for assistance. 
We were able to send teams in to link up with the States and 
began working with them as they go through the preparations and 
decisions about evacuations and sheltering, and not wait until 
they are hit and then ask for help. That ability to get teams 
in place, to have equipment prestaged, to really work across 
the Federal enterprise with our State partners as their 
supporting local government, integrate in our volunteer faith-
based and community-based organizations, and I think really 
start to embrace and be able to integrate the private sector, 
particularly those sectors that provide goods and services so 
that we are not duplicating what they do best, but focus on the 
areas where they are either expecting significant outages or 
challenges.
    That response sped up, in many cases, the time from when 
incident occurred to actual results were happening. People were 
on the ground, resources were available. I think this is one of 
the things that we really continue to focus on, is that the 
Post-Katrina Emergency Management Reform Act gives us speed, 
not haste, but speed in responding to and ensuring that we get 
resources in there.
    I would be remiss if I said this was entirely a FEMA effort 
in that much of the response we saw, particularly in the 
tornadoes across the southeast and up in the Missouri area from 
Joplin, much of what people saw on television, the search-and-
rescue teams, the mobile communication command post, all of 
that response was actually generated through State and local 
resources mutual aid, paid for and built and trained and 
exercised with the preparedness dollars this country has been 
investing since 9/11. If those dollars had not been invested, 
those teams built and trained and exercised and equipped, the 
response this spring would have looked vastly different because 
those local teams would not have been there. The equipment 
would have come from further away. We would have had to have 
deployed more of our Federal assets to those disasters, which 
would have taken more time to get there. As it was, as we saw, 
unfortunately time and time again in tornadoes--which 
oftentimes give us little warning--rescuers and teams from 
throughout the area across State lines, using the emergency 
management assistance compact which also receives funding 
through our grant program to enhance that, were there on the 
ground doing their job. We were able to focus quickly, then, on 
the recovery challenges that were going to be faced by those 
communities.
    So if anything else, the legacy of this Act has been able 
to speed up the process and ensure we work as a better 
integrated team to focus on the survivors and local 
communities, with a clarity that we don't have to wait until 
everybody is overwhelmed before we begin the response.
    [The statement of Mr. Fugate follows:]

                 Prepared Statement of W. Craig Fugate
                            October 25, 2011

                              INTRODUCTION

    Good morning Chairman Bilirakis, Ranking Member Richardson, and 
distinguished Members of the subcommittee. My name is Craig Fugate, and 
I am the Administrator of the Federal Emergency Management Agency 
(FEMA). It is an honor to appear before you today on behalf of FEMA to 
discuss our progress since the enactment of the Post-Katrina Emergency 
Management Reform Act (PKEMRA) 5 years ago.
    The importance of PKEMRA to the emergency management community 
cannot be stressed enough. For the first time, it gave FEMA clear 
guidance on its mission and priorities, and provided us with the 
authorities and tools we needed to become a more effective and 
efficient agency, and a better partner to State, local, territorial, 
and Tribal governments.
    Today I will highlight some of the great strides we have made using 
this guidance and the additional authority given us by PKEMRA. In 
particular, we have made significant improvements to our approach to 
preparedness. We now focus on engaging the Whole Community in 
preparedness activities. We have realized that a Federal-centric 
approach will not yield success and that instead we must collaborate 
and engage with partners at every level of government as well as the 
nonprofit and private sector. But there is more work to be 
accomplished.
    Going forward, FEMA is committed to working with State, local, 
territorial, and Tribal partners to develop innovative and effective 
ways to communicate both with first responders and with the individuals 
and entities affected by disasters. We will build upon the foundation 
that PKEMRA created to identify best practices and lessons learned from 
each disaster. By having a culture that continuously looks for ways to 
improve, FEMA can continue to be a capable, innovative, and effective 
agency.

                         RESPONSE AND RECOVERY

    PKEMRA gave FEMA the authority needed to lean forward and leverage 
the entire emergency management team in response and recovery efforts. 
This team includes not only government, but also private, private non-
profit, and citizen partners--the Whole Community. This Whole Community 
approach emphasizes the importance of working with all partners to 
successfully prevent, protect against, respond to, recover from, and 
mitigate all hazards.
    Prior to PKEMRA, Federal incident response duties were shared by 
two separate teams: Emergency Response Teams (ERT) and Federal Incident 
Response Support Teams (FIRST). Due to cost constraints, ERTs were 
comprised of staff with primary day-to-day duties in other areas and 
the FIRSTs had only a small dedicated staff in two regions. This 
limited our ability to quickly and adequately deploy Federal response 
teams. PKEMRA changed this by consolidating response teams. As a 
result, FEMA now has Incident Management Assistance Teams (IMATs)--13 
regional and three National--staffed with full-time, dedicated 
personnel.
    These resources proved invaluable during the response to Hurricane 
Irene. In preparing for and responding to Hurricane Irene, FEMA pre-
positioned a majority of the IMATS along the East Coast to coordinate 
with State, Tribal, and local officials to identify potential needs and 
address shortfalls in the disaster response and recovery. Additionally, 
Mobile Emergency Response System (MERS) assets are strategically 
located in disaster-affected areas to support emergency response 
communications needs. Because of all the advance preparation and pre-
positioning leading up to the storm's landfall, State, Tribal, 
territorial, and local officials consistently reported no unmet 
communications requests.
    Some other examples of FEMA leveraging the ``Whole Community'' 
during response and recovery include:
  <bullet> In Missouri, FEMA Emergency Support Function No. 14 (Long-
        Term Community Recovery) provided planning, organizational, and 
        on-site support for the Joplin Citizen Advisory Recovery Team's 
        efforts to engage residents about the recovery planning 
        process.
  <bullet> In Georgia, following the severe spring storms in the 
        Southeast this year, FEMA and Georgia Emergency Management 
        Agency collaborated with the State's Bar Association to provide 
        free legal assistance to survivors.
  <bullet> In Alabama, FEMA partnered with the Alabama Department of 
        Mental Health to activate Project Rebound in the tornado-
        affected parts of Alabama to provide free crisis counseling for 
        an extended time period after the disaster. This initiative was 
        conducted under the auspices of FEMA's Crisis Counseling 
        Program (CCP). FEMA administers this program in conjunction 
        with the U.S. Department of Health and Human Services' 
        Substance Abuse and Mental Health Services Administration 
        (SAMHSA).
  <bullet> In Missouri, FEMA worked with the State-led Housing Task 
        Force to place families with school-aged children in mobile 
        home parks first, successfully housing all families identified 
        before the start of the school year. In addition, along with 
        State and local partners, FEMA formed a Schools Task Force to 
        support and help Joplin local officials establish temporary 
        facilities for schools to meet their goal to open schools on 
        time in the fall.
    The agency is also leading substantial response planning, including 
the development of plans across the Federal Government for catastrophic 
incidents; planning for future operations for potential/actual 
incidents; regional planning for all-hazards events; and evacuation and 
transportation planning. There are also special programs focused on 
planning for chemical, biological, radiological, nuclear, and 
explosives (CBRNE) hazards to communities throughout the Nation.
    Another way that FEMA is engaging with its partners is with the 
National Mass Care Strategy. This strategy will provide a framework to 
strengthen and expand resources available to help shelter, feed, and 
provide other mass care services by pooling expertise and identifying 
partnership opportunities. The newly created National Mass Care Council 
was launched in June 2011 and is co-chaired by the American Red Cross, 
FEMA, and the National Voluntary Organizations Active in Disaster 
(National VOAD). FEMA's role is to represent ESF-6 and all Federal mass 
care components on the Council.
    In addition, the American Red Cross and FEMA are now jointly 
leading the mass care portion of Emergency Support Function No. 6 (ESF-
6), to better facilitate the planning and coordination of mass care 
services. During Hurricane Irene, FEMA worked closely with the Red 
Cross, local voluntary agencies, and impacted States, to ensure 
emergency shelters were open locally along the East Coast to provide 
shelter to residents who had evacuated from the storm. FEMA also 
coordinated with trained disaster workers from partner organizations 
such as AmeriCorps, National Civilian Community Corps, The Salvation 
Army, and Southern Baptist Convention among others. These volunteers 
helped provide food along the entire East Coast. The effort included 
more than 250 feeding vehicles, tens of thousands of prepackaged meals, 
and temporary kitchens prepositioned in numerous locations.
    PKEMRA required FEMA, along with its partners, to develop a 
National Disaster Recovery Strategy to guide recovery efforts after 
major disasters and emergencies. Through additional direction in 
Presidential Policy Directive-8 (PPD-8), FEMA and its interagency 
partners have developed the National Disaster Recovery Framework 
(NDRF). The final draft of the NDRF was released in late September 
2011.
    The NDRF clearly defines coordination structures, leadership roles 
and responsibilities, and guidance for Federal agencies, State, local, 
territorial, and Tribal governments, and other partners involved in 
disaster planning and recovery. The NDRF introduces six new recovery 
support functions (community planning and capacity building, economic, 
health and social services, housing, infrastructure systems and natural 
and cultural resources) and identifies specific recovery leadership 
positions that help focus efforts on community recovery such as the 
Federal Disaster Recovery Coordinator (FDRC). The FDRC will be deployed 
when a Federal role is necessary and significant interagency resource 
coordination is required due to the large-scale, unique, or 
catastrophic nature of the disaster. The FDRC's sole focus is 
coordinating available resources to assist the community with 
rebuilding and recovering.
    FEMA has been field testing certain aspects of the NDRF, including 
the appointment of a FDRC. For example, in the wake of the 2011 
tornadoes that tore through Alabama and much of the South, a FDRC was 
appointed to work with Alabama State officials to develop a recovery 
strategy that emphasized coordination. In addition, the Governor 
established a lead State agency to manage State coordination efforts 
and staff were co-located within the Joint Field Office to provide a 
direct connection between Federal and State partners. The NDRF 
recognizes the importance of engaging and utilizing the entire team--
Federal, State, Tribal, and local governments, non-profit 
organizations, and the community--to help a community maximize 
available resources to recover from disaster.
    FEMA has also improved its disaster case management services. On 
December 3, 2009, FEMA signed an interagency agreement (IAA) with the 
Administration for Children and Families (ACF). The IAA specifies each 
agency's responsibility for a two-phased Disaster Case Management (DCM) 
Program for future deployment. On March 11, 2011 FEMA signed a 
Memorandum of Agreement (MOA) with ACF to strengthen areas of mutual 
support and coordination in the development, administration, and 
implementation of the DCM. Phase I of the DCM Program consists of the 
ACF DCM model of rapid deployment with immediate assistance to 
applicants. Phase II is a State-managed DCM Program that will assist 
applicants with long-term unmet disaster needs. Additionally, FEMA has 
developed and released a DCM Application Toolkit and is currently 
developing a DCM Program Manual.
    These are just a few of the many examples of FEMA's efforts to 
utilize the expertise and resources of our stakeholders at every level 
and use the newly developed tools to improve response and recovery 
capabilities and activities.

                              PREPAREDNESS

    Part of FEMA's mission is to ``develop and coordinate the 
implementation of a risk-based, all-hazards strategy for 
preparedness.'' FEMA's Protection and National Preparedness (PNP) 
organization includes both our National Preparedness and Grant Programs 
Directorates, which work to ensure the Nation is adequately prepared 
for disasters of all kinds. PNP strives to promote National 
preparedness through a comprehensive cycle of planning, organizing, 
equipping, training, exercising, evaluating, and continuous 
improvement.
    Our National Preparedness Directorate has met some of the 
preparedness goals envisioned for the agency through PKEMRA, including:
  <bullet> Issuance of Credentialing Guidelines;
  <bullet> Promulgation of a National Incident Management System (NIMS) 
        Training Plan; and
  <bullet> Refocusing and improving our National Exercise Program.
    These are only a few of NPD's accomplishments that will contribute 
to National preparedness. Our Grant Programs Directorate continues to 
focus and improve upon our many preparedness grant programs, which have 
provided tens of billions of dollars in critical aid to our State and 
local partners in advancing their preparedness.
    This September, we held a National Recovery Tabletop Exercise 
(Recovery TTX) in the Washington metropolitan area. This exercise 
involved players from the Whole Community, with over 200 participants 
from Federal, State, Tribal, and non-governmental organizations. The 
Recovery TTX consisted of both plenary and breakout group sessions and 
focus on three planning horizons: Short-term, immediate, and long-term 
recovery. This exercise was the first opportunity to explore the 
applications of the National Disaster Recovery Framework using a large-
scale, multi-State catastrophic disaster scenario.
    An important part of the Whole Community is the private sector, and 
FEMA works to incorporate them into its preparedness activities as much 
as possible. In addition to being strong partners in our most recent 
National Level Exercise, private sector representatives also 
participate in FEMA's no-notice ``thunderbolt'' disaster response and 
recovery exercises. To further connect directly to the private sector 
during the most crucial disaster response efforts, a rotating 
representative from the private sector works in FEMA's National 
Response Coordination Center during activations to communicate and 
coordinate with all members of the private sector including small 
businesses.
    FEMA also stresses the importance of individual businesses 
conducting emergency planning. In order to raise awareness, the 
Department of Homeland Security (DHS) and the Ad Council launched the 
Ready Business Campaign as an extension of the Department's successful 
Ready Campaign. Ready Business helps owners and managers of small- and 
medium-sized businesses by providing them with practical steps and 
easy-to-use templates that include information on a variety of 
preparedness topics including creating an evacuation plan, fire safety, 
and protecting business investments by securing facilities and 
equipment. In addition, DHS grant programs managed by FEMA allow a 
tremendous amount of flexibility for State and local jurisdictions to 
include private-sector companies as part of their all-hazards planning 
efforts. Allowable activities include the development of public-private 
sector partnership emergency response activities, development of 
assessment and resource sharing plans, and the development or 
enhancement of plans that engage with the private sector to meet human 
services response and recovery needs of disaster survivors.
    In addition to engaging the private sector, a realistic approach to 
emergency management means not only conducting exercises that reflect 
real disaster scenarios, but incorporating the needs and abilities of 
real disaster survivors into planning and preparedness efforts. Our 
planning must be inclusive of people of different ages and abilities 
and it must meet the access and functional needs of children and people 
with disabilities. In February 2010, FEMA established the Office of 
Disability Integration and Coordination, and in July 2010, established 
the first-ever Disability Working Group within FEMA. The Disability 
Working Group is responsible for ensuring that the access and 
functional needs of children and adults with disabilities are fully 
integrated into all aspects of FEMA's disaster planning, preparedness, 
response, recovery, and mitigation efforts initiated and coordinated at 
the Federal level. As an example, when we pre-stage commodities in 
preparation for disasters, we include basic items such as water, meals, 
and generators. However, military-style Meals Ready to Eat (MREs) and 
other provisions are not necessarily suitable for the entire 
population, especially young children. So we transitioned from MREs to 
commercial shelf-stable meals and we pre-stage commodities including 
infant formula, baby food, electrolytes, and diapers to anticipate, 
understand, and specifically plan for the needs of children. By 
improving the preparedness of the Whole Community, FEMA is better able 
to respond to catastrophic events in an organized and efficient manner.

                               MITIGATION

    In addition to our preparedness and recovery activities, disaster 
mitigation is an important part of preparing for disasters. In the 
April 2007 Congressional Budget Office (CBO) report, ``Potential Cost 
Savings from the Pre-Disaster Mitigation Program,'' the CBO estimated 
that future costs are reduced by $3 for every $1 spent on mitigation 
projects. By encouraging and supporting mitigation efforts, FEMA leads 
the Nation in reducing the impact of disasters and helping to break the 
``damage-rebuild-damage'' cycle in America's most vulnerable 
communities. FEMA has the lead role in helping communities increase 
their resilience through risk analysis, reduction, and insurance. One 
mitigation tool is the Flood Hazard Mapping and Risk Analysis Program, 
which addresses flood hazard data update needs and preserves the 
successful Flood Map Modernization investment. The National Flood 
Insurance Program (NFIP) provides flood insurance on a National basis 
to owners of properties located in vulnerable areas through the Federal 
Government, through both a premium revenue and fee-generated fund 
called the National Flood Insurance Fund (NFIF).
    In fiscal year 2010, the NFIP reduced potential flood losses by an 
estimated $1.6 billion. The Pre-Disaster Mitigation (PDM) program 
offers an annual funding source for qualified mitigation activities 
that are not dependent upon a declaration of disaster by the President. 
In fiscal year 2010, the PDM program has reduced administration costs 
by $800,000. Furthermore, Risk Mapping, Assessment, and Planning (Risk 
MAP) is FEMA's program to provide communities with flood information 
and tools they can use to enhance their mitigation plans and better 
protect their citizens. FEMA initiated 600 Risk MAP projects in this 
past fiscal year, which assisted 3,800 communities by addressing the 
highest priority engineering data needs, including coastal and levee 
areas.

                        EMERGENCY COMMUNICATIONS

    The ability to effectively communicate during and immediately after 
a disaster is essential to fulfilling our mission. In the past 5 years, 
we have--in response to changes in technology--completely overhauled 
the way we communicate with each other and with the public in a 
disaster environment. We now leverage cutting-edge technology as well 
as important social media tools to communicate in a more effective and 
dynamic way.
    PKEMRA included the support of National communications capabilities 
as part of FEMA's mission. As a result, in 2008 FEMA established the 
Disaster Emergency Communications Division (DECD) within the Response 
Directorate as the lead integrator of tactical Federal disaster 
emergency communications. DECD provides tactical emergency 
communications support utilizing its Mobile Emergency Response Support 
(MERS) and Mobile Communications Office Vehicle (MCOV) assets, to 
emergency managers and first responders when Federal, State, local, 
Tribal, or territorial infrastructure cannot support communications 
needs for disaster emergency operations. Some of DECD's activities 
included offering support to emergency responders in the field for the 
establishment of State-specific disaster emergency communications plans 
to improve the Nation's interoperability and response capabilities.
    PKEMRA also requires the establishment of a Regional Emergency 
Communications Coordination Working Group (RECCWG) within each Regional 
Office to report to the Regional Administrator and coordinate its 
activities with the Regional Advisory Council. RECCWGs have been 
established in each of the ten FEMA Regions. The Working Groups 
continue to mature, enhance membership, and collectively evaluate 
inter- and intra-State interoperability programs, share best practices, 
and advise the FEMA Regional Administrators on the state of regional 
communications interoperability.
    Looking to the emergency communications of the future, FEMA is also 
developing a next-generation infrastructure for alert and warning 
capabilities, known as PLAN (Personal Localized Alerting Network). Cell 
phones are data centers, capable of quickly accessing and storing a 
large amount of information. One of the major lessons we learned from 
the January 2010 earthquake in Haiti was that even if the physical 
infrastructure of an area is completely destroyed, the cellular 
infrastructure may be able to bounce back quickly, allowing emergency 
managers to relay important disaster-related information and enabling 
the public to request help from local first responders. This new, free 
public safety system allows customers with an enabled mobile device to 
receive geographically targeted messages alerting them of imminent 
threats to safety in their area whether nearby cell phone towers are 
jammed or not.
    We are also expanding our use of social media tools. Social media 
is an important part of the Whole Community approach because it helps 
facilitate the vital two-way communication between emergency management 
agencies and the public, and it allows us to quickly and specifically 
share information with State, local, territorial, and Tribal 
governments as well as the public. FEMA uses multiple social media 
technologies like Facebook, Twitter, and YouTube to reach the public. 
Rather than asking the public to change the way they communicate to fit 
our system, we are adapting the way we do business to fit the way the 
public already communicates. We value social media tools not only 
because they allow us to send important disaster-related information to 
the people who need it, but also because they allow us to incorporate 
critical updates from the individuals who experience the on-the-ground 
reality of a disaster.

                               CONCLUSION

    I am very proud of the progress we have made since Hurricane 
Katrina. While we still have more work to do, I am confident that with 
the authorities and tools given us by Congress and the lessons we have 
learned through their application during disasters, FEMA will continue 
to be an agile and innovative agency that is consistently improving its 
processes. Thank you again for the opportunity to appear before you 
today. I am happy to answer any questions the subcommittee may have.

    Mr. Bilirakis. Thank you very much.
    I have a couple of questions. So I recognize myself for 5 
minutes.
    Again, FEMA has clearly made strides in its capabilities 
since Hurricane Katrina. I know you addressed some of this. 
What lessons have we learned from more recent disasters about 
gaps in our preparedness and response capabilities, and what 
additional authorities do you need to further advance FEMA's 
response capacity?
    Mr. Fugate. I am not sure yet about additional authorities, 
but I do know that there are some areas that we are working on 
and this comes back to some of the technologies. We have been 
working very aggressively with the geospatial NGA in providing 
us better information. One of the things we know is our ability 
to get information, before people actually get on the ground, 
to begin describing impacts can help all of the team make 
better decisions in early response. So this is an area where we 
have a tendency to wait until we are down there in an area to 
get information or we are waiting for things to come up through 
official channels when they are busy responding.
    Two things we are focusing on is how do we get information 
from various types of sensor platforms; but on the other hand, 
how do we get more information from the public? This is one of 
the things I think that I am seeing more and more of and the 
benefits we saw in these recent disasters. Oftentimes we were 
getting faster and more accurate information from people that 
were sending out everything from social media to local and 
National news media that had reporters on the ground. They were 
sending uplinks of those disasters. Looking at that and going 
just based upon that, I am seeing a lot of damage.
    We can go. But how do we do this in a way that we can get 
this information out that is actionable and speed up that 
response, and the faster we are able to adjust to those issues, 
the better our response is. So I think it is one of the 
challenges that we look at: How does the public share 
information, how are they communicating and are we listening to 
what they are telling us? Then combine that with a lot of the 
capabilities that we now have working with NGA on how to use 
better GIS and geospatial information to put together a better 
operating picture so we are responding faster.
    Mr. Bilirakis. Good. As part of the National Preparedness 
System, PPD-8 requires that the development of various 
frameworks to enhance our ability to prevent, protect against, 
respond to, mitigate, and recover from natural disasters and 
terrorist attacks. As part of this requirement and a 
requirement of PKEMRA, FEMA recently released the National 
Disaster Recovery Framework. I understand FEMA is in the 
process of reviewing the National Response Framework. What is 
the status of this review and what is FEMA's role in the 
development of the other frameworks? What is the status of that 
effort?
    Mr. Fugate. Status is on-going. We have various delivery 
dates that are published. The National Disaster Recovery 
Framework was in its inception when PPD-8 was being developed. 
So it conformed to and met those requirements as one of the 
elements to the framework. The National Response Framework and 
the other frameworks will be updated as we go through the 
process of implementing PPD-8. FEMA has been charged by the 
National security staff and Secretary Napolitano for the 
coordination role, but some of those goals will actually be 
managed by other agencies that are more focused on some of 
those activities. But we have the overall responsibility for 
coordinating all of those documents and all of the frameworks 
under PPD-8.
    Mr. Bilirakis. Thank you. Earlier this year, the 
subcommittee held a hearing on the IPAWS program, and Ranking 
Member Richardson had mentioned it, and I am also a supporter. 
We heard from Assistant Administrator Penn about the plans for 
the implementation of the Personal Localized Alerting Network. 
Would you please provide an update on the status of PLAN? When 
you and Chairman Genachowski and Mayor Bloomberg unveiled the 
program in New York City this summer, the intent was for the 
plan to be operational in New York and Washington, DC by the 
end of the year. Give us the status. Are we on track for that? 
How would you say the cooperation between the FCC and FEMA has 
been through this process?
    Mr. Fugate. Well, let me start with the cooperation of the 
FCC. The Chairman and I have been working closely on this and 
other activities, including the National emergency alert system 
test November 9, and there is a lot of activities that I think 
we have built a good partnership in working in their role as a 
regulatory in dealing with licensed carriers and the broadcast 
industry, and our role working with the user groups and the 
warning systems.
    As far as I know, things are on track but I will go back 
and make sure we are doing that. One of the things that we 
hoped that we are seeing is there was a time frame for industry 
to adopt, as we published the rules, the technology to do the 
plan, so you had the personal location capabilities and cell 
phones. From my understanding, we are actually seeing industry 
adopt to that faster, and so that they are actually going to 
exceed a lot of those deadlines. But I will go back to Damon 
Penn and get an update on the status of all of those.
    Mr. Bilirakis. Please do. I am very interested. I know the 
Ranking Member is, too.
    I yield 5 minutes to the Ranking Member, Representative 
Richardson.
    Ms. Richardson. Yes. Thank you, Mr. Chairman.
    As I said, Administrator Fugate, regarding the disability 
coordinator, in each region is there a disability--is there a 
person responsible for disability coordination?
    Mr. Fugate. As far as I know, I think we finished hiring 
the last one and several of them, in fact--in all of the recent 
disasters they have been deployed, and particularly across the 
tornadoes were deployed into those joint field offices. Most 
recently, the recent hire in Region 4, which is based in 
Atlanta, was deployed into North Carolina, which was a 
tremendous asset helping us work with the hard-of-hearing and 
deaf communities.
    Ms. Richardson. Is that that person's sole responsibility 
in each region?
    Mr. Fugate. It is their primary responsibility. Again, we 
also like to remind ourselves that we are all emergency 
managers and we do what we have to do during disaster. But 
their primary responsibility for preparing for, responding to, 
recovering in the mitigation, is looking at being inclusive 
across our programs. So not only do we look externally at our 
response functions, but we also look internally at our own 
practice to make sure we are being inclusive, everything from 
meetings to just accessibility in our buildings.
    Ms. Richardson. What else are those individuals responsible 
for?
    Mr. Fugate. I would not be aware of any additional specific 
tasking, but I can get that in writing.
    Ms. Richardson. Okay. What I would like to know 
specifically is, is there a specific person responsible for 
disability coordination in each region and, if so, what 
percentage of their work is inclusive in doing that? Of their 
other work, what is that and how much time does that take? The 
disability coordinator has a budget of approximately $150,000. 
What is used for that?
    Mr. Fugate. I am not sure that is the full extent. I am not 
sure how we are accounting for it. We just hosted a conference 
that I know was far in excess of that. On the disability 
integration hearing in Washington, the Chairman spoke at that. 
We have deployed these folks out. We have done training. We 
have been working on guidance. So one of the things I need to 
look at is this being reflective of all of the money we are 
spending across the various programs, or is this just one part 
of that.
    So I would like to respond in writing and get you the full 
accounting of the total staff that are assigned to that office, 
all the resources we are pulling from other elements. You are 
correct, I did not ask for a line item. We took a lot of these 
out of activities we were doing and focused on disability 
integration and basically got different parts of FEMA to 
provide the resources.
    Ms. Richardson. Okay. So we look forward to that in 
writing.
    As you know, I represent the largest amount of Samoans 
outside of Samoa. What current emergency system do they have 
there working right now?
    Mr. Fugate. As last I knew, we were going through the 
testing phase of the island-wide siren system. That was one of 
the concerns we had after the tsunami, that there had been 
previous studies but they had not actually carried out and 
implemented the warning system for the island. My understanding 
is it has been going through the test. I don't know if we have 
certified it yet. But that was to address the issue of not 
having island-wide warning for a tsunami warning which occurred 
when they were hit with a tsunami in 2009.
    Ms. Richardson. Okay. At our July hearing, the Federal 
alert and warning effort witnesses identified a need to 
increase IPAWS training for emergency managers as a critical 
area to address. What status have you taken to increase 
training for managers with IPAWS?
    Then further, I would like to build upon, it is my 
understanding that there is a test of the emergency alert 
system scheduled for November 9, 2011. Although I understand 
the test is not a pass/fail, I am interested to know the 
performance of the system and how it will be evaluated. Can you 
speak to that?
    Mr. Fugate. I will ask Damon Penn for an update on 
training. I know they have been working to do more training on 
IPAWS both in the broadcast industry and the emergency 
management community.
    Regarding the National emergency alert test, this is the 
first test outside of Alaska of an emergency alert 
notification, which would be a Presidential notification. Since 
the creation and all of the history of the emergency alert 
system back as far as the emergency broadcast in Connorel, it 
has never received a National test. So this will be the first 
time that we will actually begin the activation as an emergency 
action notification from the White House as the origination.
    We utilize this to look at how the system performs and how 
that message is carried out. Because this is a legacy system, 
it does not have a test function. So we are using the actual 
alert notification message, and it is important that we remind 
people of that on the test date, that this is just a test. We 
are working with the FCC and the broadcasters to ensure that. 
But this will be the first time of a historic test of the 
system on a National basis.
    Ms. Richardson. Mr. Fugate, I just want to say, although we 
can all make improvements, it has been very assuring to see you 
at the numerous disasters that we have had. I think you have 
been very proactive. You have been very visible on television, 
providing updates and reports, and I think it has been a huge 
change and I want to thank you personally for your work.
    Mr. Fugate. Thank you.
    Ms. Richardson. I yield back.
    Mr. Bilirakis. I now recognize the Ranking Member of the 
full committee, Mr. Thompson, for 5 minutes.
    Mr. Thompson. Thank you very much. I would like to echo the 
sentiments of Ms. Richardson. I have been here pre-Katrina, 
post-Katrina, and I have seen a different FEMA. Obviously it is 
always a work in progress, but I have never seen you as 
administrator not address whatever problems you were presented 
with, and I thank you for that.
    Just for the record, Mr. Fugate, just so the public 
understands that a declaration from the Presidential level is 
only after the State and local requirements based on some kind 
of request have been made. Can you just kind of walk us up that 
chain?
    Mr. Fugate. Yes, sir. This goes back to under the Stafford 
Act. Only the Governor of a State or territory is authorized to 
request from the President a disaster declaration, and that 
disaster declaration is based upon the Governor certifying that 
that event has overwhelmed State and local capabilities. We 
look at impacts on a per-capita basis for public assistance to 
determine part of that, but it is not the sole determination. 
It can oftentimes be based upon the significant impacts of what 
the trauma is to a community.
    In addition, when we look at individual assistance, again 
it is not based on a homeowner's destruction, it is based upon 
the overall impact of the State, it is based upon the size of 
that State. So you will see disasters declared in much smaller 
States because of the population that in a much larger State 
you would assume would have more resources to deal with that. 
So it is not based upon a numerical formula for that 
assistance. It is always based upon the Governor certifying 
that this exceeds their capabilities and they are formally 
requesting the President to declare that a disaster.
    Mr. Thompson. Thank you. So the President on his own, by 
law, can't do it without the necessary request from that 
Governor?
    Mr. Fugate. The President has some limited abilities, but 
in most cases and in all of the disasters that we have dealt 
with, the only time that we have responded to is when a 
Governor has made that request.
    Mr. Thompson. Thank you. If, in fact, FEMA, in its 
prepositioning and mobilization efforts, was limited in doing 
so based on some standard of offset, what would that do to 
FEMA's ability to respond to a wildfire, hurricane, tornado, if 
an offset had to be identified before you would be able to 
move?
    Mr. Fugate. To be honest with you, sir, what I am looking 
at is what is the fund balance in the DRF and how the money 
gets there really is now secondary to that. What I did see as 
we approached the end of our current fiscal year last year, our 
response funds dropped to a level that we would have been 
extremely compromised in our ability to respond to a no-notice 
disaster such as an earthquake. We looked at what the various 
options were. But when that balance drops below a certain 
amount and that amount is oftentimes, you know, up to about a 
billion dollars, when you look at the cost of the response to 
some of the large-scale threats this country faces, whether it 
is earthquakes in California or a major hurricane making 
landfall in, let us say, Miami or Tampa or New York, response 
cost is in not tens or hundreds of millions, it literally can 
very quickly escalate into the billions of dollars.
    At our National level exercise we did this year on the New 
Madrid Earthquake, initial response cost estimates were about 
$1.5 billion. So when you are sitting there with a fund of only 
100-or-so million dollars in a fiscal year, it begs the 
question, Mr. Chairman, how will we respond to the next 
catastrophic disaster? That is one of my greatest concerns is, 
we should not look at the DRF just for the disaster to have 
been declared. It is also those funds needed to respond to the 
next no-notice disaster that we have to be prepared for.
    Mr. Thompson. To what extent have you directed your staff 
to close out past disasters that are still on the books?
    Mr. Fugate. We have taken a tiered approach. Our first goal 
and looking at open mission assignments from previous disasters 
that the Federal agencies had completed but they still had fund 
balances, so we closed those out, that returned over $2 billion 
back into the DRF last fiscal year.
    The next steps, versus closing out the entire disasters, 
has been looking at projects that had been completed and the 
States were no longer drawing funds against, but they had 
outstanding balances in the obligations. In working with the 
States, we were able to deobligate those dollars, and that was 
over a billion and a half that we were able to recover in the 
past year. We expect there to be about another billion in the 
next fiscal year is approximately what we are looking at.
    As we get to those recoveries, then we will start looking 
at these older disasters which still require a financial 
reconciliation. There is no more money, but we still need to 
get them finalized to officially close them out. But our first 
goal was to get money that was obligated, but was not going to 
be used, back in the DRF so we can continue paying for the more 
recent disasters.
    Mr. Thompson. Thank you. Just for the record, can you 
provide the committee with a status report on those disasters 
that are still open?
    Mr. Fugate. Yes, sir.
    Mr. Thompson. Whatever the accounting is. Thank you, I 
yield back, Mr. Chairman.
    Mr. Bilirakis. Thank you. I now recognize the gentleman 
from Pennsylvania, Mr. Marino, for 5 minutes, who was obviously 
affected by the storms, his Congressional district.
    Mr. Marino. Thank you. Director, it is good to see you 
again. Yes, we were affected by the storms in Pennsylvania. But 
I want to commend you and your staff. I know we had 
communications during our hurricanes and Irene. I see Pat 
sitting behind you and he is quite a trooper. He was on the 
phone with me a dozen times when we needed water, we needed 
food, and we needed strategic changes made. I want to thank him 
for the service that he provided. I know he got a promotion, 
but, Pat, I still have your cell phone number and I am going to 
take advantage of it.
    You brought up a good point on being notified. Just 
briefly, going into how important it is for States to be in 
touch with FEMA so you can get on the ground running and that--
many indications that that--you didn't have that in Katrina. 
There are also indications that just the request--the requests 
weren't asked or they weren't asked for in time. How important 
is it?
    Mr. Fugate. I think it is absolutely critical. Of all the 
lessons I have learned over history is we really--when we are 
dealing with these types of events--and I am going to break 
this into two pieces, those that we are dealing with that are 
recoveries and those that are an active response such as we saw 
with Irene. It is really hard to be effective if you are always 
identifying yourself as a local, State, or FEMA Federal person. 
You have really got to work as one team. So to get in there 
quickly, work as one team, be responsive in anticipating needs, 
versus waiting for things to get so bad before they are 
overwhelmed before you get the next request.
    So I think that is one of the hallmarks of the Post-Katrina 
Emergency Management Reform Act, is really getting rid of these 
artificial divisions. Saying, look, when it hits that level, we 
have got to work as one team. It shouldn't be something where 
we are literally passing paper up the food chain to get an 
answer. We should be able to work together and work and solve 
problems quickly.
    Mr. Marino. Do you have the authority that you need now 
post-Reform Act to step in even if a State fails to request, 
for whatever reason, and say, look, we see this as a disaster 
and we need to come in and assist you in doing preventive 
measure? Do you have that authority as far as you are 
concerned?
    Mr. Fugate. We can do quite a bit without a formal request 
from the Governor to pre-position supplies and move resources 
in. But I don't know if the Post-Katrina Emergency Management 
Reform Act can address this, sir. You are actually getting into 
a Constitutional question. As we reserve the police powers for 
the States under Article 10 of the Constitution, we could take 
some actions. But I think, again, we find it much better to get 
our teams in there with the State and work through those 
challenges, behind the doors, to get things done versus waiting 
until people fail.
    So I would say that our goal is to get there early, work 
with the State, anticipate need, not wait on the request and, 
where we can, advise and help get to a better decision faster.
    Mr. Marino. Well, I will certainly be supporting you in 
that aspect. If we need more legislation, I will be taking the 
lead on that with you as well. I know we did a lot of things 
right in Irene the last few weeks and over the month, and in my 
district--just an example of it, I have never seen the Feds, 
the State, and the locals work so closely together. So tell me 
what we realized from this last round, what was not effective 
and what can we do differently?
    Mr. Fugate. Well, I will pick on one aspect of this because 
it is going to come up, and particularly when we deal with 
flood events, is looking at the National Flood Insurance 
Program. One of our challenges is that we have communities who 
have chosen not to participate in the National Flood Insurance 
Program and they get flooded, it severely limits our ability to 
provide individual assistance. It is to effect we are holding 
individuals responsible for the failure of local governments to 
adopt and join the National Flood Insurance Program.
    So it oftentimes puts us in a bind where people have been 
flooded, they have had losses. Their neighboring communities 
are getting assistance, but they can't because their community 
didn't adopt the National Flood Insurance Program. I think it 
would to me make more sense to put maybe the burden back on the 
local governments and look at their public assistance versus 
the individual assistance. I realize, you know, with the Flood 
Insurance Program, our goal here is to get people at risk to 
purchase flood insurance and to have that protection so the 
taxpayer is not having to pay for flood damages. But it is an 
area that it will be difficult--it is part of the reason why we 
have to send out remittances when we do provide assistance to 
people and it turns out they weren't in a Flood Insurance 
Program, and we have to ask for the money back. As Ranking 
Member Thompson can tell you, that is a very difficult 
proposition when we get to that point.
    Mr. Marino. Right. Look, I know you need the funding. I was 
the one that stood up in the House and said look, let's not 
argue of what is going to happen here, let's just get the 
funding out. My district appreciated it. I think there are 
enough inefficient agencies here in the District of Columbia 
that deserve to be cut and those funds that we can hopefully 
make certain that you have them, so you can serve so well as 
you have in the past. Thank you so much. I yield back.
    Mr. Bilirakis. Thank you. I now recognize the gentleman 
from Michigan, Mr. Clarke, for 5 minutes.
    Mr. Clarke. Thank you, Mr. Chairman. Administrator Fugate, 
I appreciate you being here. I represent metropolitan Detroit, 
which includes the city of Detroit and also includes the 
Northern Border with Canada. A couple of questions.
    My first deals with promoting interoperability among 
communications with our first responders as well as with our 
Federal officials along with our Canadian counterparts. Let me 
just illustrate that. There was, according to one of our local 
law enforcement first responders a few years ago, there was an 
accident on the Detroit River. That first responder had a hard 
time communicating to the Coast Guard about it, and in turn 
none of them could notify their Canadian counterparts.
    As a result of the new law in 2008, FEMA established a 
Disaster Emergency Communications Division. Particularly how 
does this division help coordinate response on the Northern 
Border or could be used to coordinate response on the Northern 
Border in a way that would foster interoperable communications 
among first responders with their Canadian counterparts and the 
Federal authorities?
    Mr. Fugate. Well, we will start with the disaster emergency 
communication function. I think it does two things. One, it 
helps bring in and reestablish communications to local and 
State jurisdictions that have lost it in a disaster. But a more 
important element that we saw was really beneficial was helping 
States develop their communications plans.
    Again, I will be honest with you, those have been State-
centric. The question you raise is actually interesting because 
it is something that I know Secretary Napolitano is working 
across the enterprise in DHS--is looking at how do we work to 
cross-border issues that are transnational, but in a response 
world first responders can see each other across the river. How 
do you get better integration there?
    I know that our Region 5 administrator is working with your 
shop on some of this, but I think it is one area that I would 
like to take back to Secretary Napolitano as a concern you have 
raised and look at how our plans, which are really focused on 
the States, could be tied into more activities at DHS, 
particularly with the Coast Guard, Immigration, and Customs and 
some of the others that are working across the border. Because 
we know the first responders are. I think that is kind of an 
area that we will go back to the Secretary and say, this is 
maybe an area that these committees could work closer and there 
may be avenues to work through other parts of DHS to work with 
our Canadian counterparts.
    Mr. Clarke. Thank you very much. Administrator, one other 
question and it deals with how can we best prepare citizens who 
are struggling right now financially to be prepared in case 
there is a disaster?
    You know, in the city of Detroit, our city, our region, we 
have lost more jobs, more people, more homes than any other 
city or region in the country over the last 10 years. So in 
downtown Detroit in particular, we have many people that have 
special needs who may be physically challenged, you know, get 
around with wheelchairs or other type of devices to help them 
with their mobility. We also have folks who are struggling 
every day just to provide for their own basic needs just 
financially, just don't have the money to do so. So how can 
FEMA better help prepare individuals who are struggling right 
now to be able to be prepared for a disaster?
    Mr. Fugate. Well, not to sound trite about this, but I 
think we oftentimes make the entry level into being fully 
prepared so expensive. Even people of means look at this and 
go, if I went and bought everything on your list brand new, 
that could cost me hundreds of dollars. I think we have made 
that such a high bar, that we actually want to go back and 
start out with more basic questions. Again, I think this is 
again your office, and folks can help get this word out; you 
don't have to make sure you have got everything, but just start 
with the most basic thing. Do you have a family communication 
plan? We know that for a lot of folks, they don't have--they 
are very mobile, they use mobile communication devices, they 
use their cell phones, they don't have anything else. Do they 
have a plan of what to do--because as we saw here with the 
earthquake, you are not going to be able to get dial tone. But 
do you have a backup plan to text message or do you have rally 
points to know if I cannot get to you, there is someplace we 
can meet?
    Preparedness oftentimes starts with just the basic steps of 
developing your family communication plan of how you are going 
to let family and friends know, and where you are going to go 
if you can't get home. Those initial steps start the process.
    But we are also sensitive to the fact--and this is one of 
the things we have been working with our State partners on, 
durable medical goods and other supplies that may be needed for 
people that have additional resource needs. We are really 
trying to be focused on making sure we are inclusive on the 
front end, not treating this as an afterthought of dealing with 
people who may need additional resources when a disaster 
strikes.
    Mr. Clarke. Thank you.
    Mr. Bilirakis. The gentleman yields back, correct?
    Mr. Clarke. I yield back.
    Mr. Bilirakis. Okay. Now I recognize Mr. Farenthold for 5 
minutes from the great State of Texas. You are recognized, sir.
    Mr. Farenthold. Thank you, Chairman Bilirakis. 
Administrator Fugate, we have been plagued in Texas by 
wildfires for the past year. Of the disasters FEMA faces, 
wildfires are one that actually can be mitigated while they are 
going on. So I have a two-part question for you to begin with. 
First, can you outline what FEMA's responses have been to the 
wildfires in Texas and how has FEMA and the Federal Government 
as a whole cooperated on bringing the resources necessary to 
mitigate those fires as they are going on, and afterwards?
    Mr. Fugate. Well, the two pieces of this--I will start with 
the last one first, because the lead agency for coordinating 
Federal assistance is the U.S. Forestry Services, Agriculture, 
through the interagency. We support them there.
    On the other side, the financial side of this, has been 
through the issuance of a record number of fire management 
grants that are fire-specific, as well as a major Presidential 
disaster declaration focused on individual assistance. In some 
of the more recent fires, we lost a large number of homes.
    What is happening in Texas, though, the wildfires are 
merely a symptom. What we have got is a sustained long-period 
drought that doesn't seem to be ending. One of the challenges 
that I am finding that I experienced in Florida is that our 
fire management grant programs are really designed about very 
large, centralized fires. What we have in Texas is a lot of 
little fires that, if you don't get them knocked down quick, 
will grow to the big fires.
    So there is quite a bit of activity on-going across Texas. 
A lot of it is being done by volunteer fire departments that 
are tied to these fire management grants. I have had 
discussions with the State director of emergency management 
there named Kidd, and I have asked my staff to come back and 
look at some of these issues. But my concern in Texas is this 
is not a situation that is improving and it is not a fire by 
fire. It is the underlying drought. Until that drought breaks, 
my concern as to the wildfire situation in Texas will continue 
to be active and that we have to continue to look at our tools, 
providing assistance both through our interagency process with 
the U.S. Forest Service as well as the financial assistance 
through fire management grants and declarations.
    Mr. Farenthold. Short of praying for rain, I would 
appreciate if you or your staff could get with my office and 
the rest of the Texas delegation to see what, if anything, can 
be done to improve that situation.
    I also want to move over to the EAS just for a second and 
shift gears. You have got the test coming up. I would imagine, 
having been in broadcasting since I was 16 years old, I see 
first-hand the flaws of the EAS and what it has evolved into. 
Is FEMA looking at, with the advents of new technologies like 
cell phones, text messaging and the internet, coming up with a 
new technology to either replace or supplement EAS?
    Mr. Fugate. Yes, sir. In fact, that was some of the remarks 
that our Ranking Member Richardson and the Chairman talked 
about, what we call IPAWS, the integrated public warning and 
alert system. It is taking advantage of newer technology and 
using a common alerting protocol to go across all devices. Part 
of this is working with the FCC where personal location, alert 
notifications, can be geographically tagged to your cell phone 
based upon your location, as well as the ability to now operate 
across a lot of different technologies.
    Mr. Farenthold. My concern with that--and as we saw in the 
earthquake up here--the cell phone network, especially in a 
time of disaster, is substantially more fragile than we would 
like to believe.
    Mr. Fugate. That is correct. Again if we were trying to use 
the cell phones for the way you would be doing voice traffic, 
it would not work. But cell phones are also radios. The cell 
towers actually have broadcast functions that you can actually 
send one-way transmissions to. That is the benefit of that.
    The other benefit is rather than alerting everybody in an 
area, we can specify those areas that are geocoded to the 
threat, so when a tornado--remember how we used to have to 
alert the whole county? Now we can give a more----
    Mr. Farenthold. Is that based on tower location or GPS from 
the phone, or both?
    Mr. Fugate. It is based upon the phone knowing where it is 
at, whether it is GPS or triangulation. We don't track that 
information. It just tells everything in that tower area to 
alert. It doesn't track the actual phones. So the phones are 
self-aware, but the system doesn't monitor the phones. It just 
broadcasts to that specific area.
    Mr. Farenthold. All right. I appreciate your responses. 
Thank you for being here and thank you for your hard work. I 
will yield back.
    Mr. Bilirakis. Thank you. Now I would like to recognize the 
gentlelady from New York, Ms. Hochul, for 5 minutes.
    Ms. Hochul. Thank you, Mr. Chairman. We are talking about 
personal notification systems, Mr. Administrator, how you can 
give information to the public. What troubles me in this 
century is that the public is not able to send a 9-1-1 text 
messaging to public safety dispatchers, whether it is in a 
natural disaster, whether it is a situation we had at Virginia 
Tech, whether children--young students in a lockdown situation 
and they are sending 9-1-1 messages out there on their cell 
phones, believing fully that they are going to be heard, and we 
don't have the capability. I find that to be a National 
embarrassment personally, and I am not casting any dispersion, 
any blame. I am just saying how do we solve that?
    When I am talking to people at FCC sometimes they will say 
it is going on over at Homeland Security, Homeland Security 
might say it is FCC. What is preventing us from doing that? 
Because I think that is something that--you know, there is a 
generation, probably from my age on down, or lower than me 
down, where the expectation is that when they send 9-1-1 on the 
cell phone, it is going to be received by somebody who is in a 
position to help them. Very sadly, that is not the case in 
America today.
    Mr. Fugate. I am going to ask my staff to get the FCC to 
respond back in writing, because I share your concerns. I know 
that the FCC has been working on what they call next generation 
9-1-1, and they have been looking at some pilot programs of how 
you could start taking in text messaging and other types of 
social media. One of the challenges is the system was never 
designed with that as this technology has come on board.
    So I know the FCC has been looking at preliminary 
rulemaking. They are looking at several pilots. I will ask my 
staff to work with the FCC so we can respond jointly back to 
you. What they are looking at in the next generation of 9-1-1, 
they are anticipating how do you adapt to the known, but also 
emerging technologies that we may not quite understand? Again, 
it is a common idea, and I think you pointed it out very well. 
We have to adapt the way the public communicates, not 
necessarily force them to enter the legacy systems. That has 
been one of the challenges as we move forward.
    Ms. Hochul. I appreciate your attention and I would urge 
that you make that a major priority, because in natural 
disasters or in lockdown situations or anytime that our public 
needs help, they are assuming that they are reaching us.
    We had a situation where gunshots were fired in one of my 
suburban high schools outside Rochester. Fifty kids sent 9-1-1 
messages and they thought they were received. So I would like 
this to be a major priority because I think it could be a 
tremendous help. If you are talking about pilot programs, I 
will sign up right now. I have sat down with many of my public 
safety dispatch operations throughout my seven counties and 
they are ready to do it. They just need the resources to get it 
going.
    But again, I commend you on your attention. You have so 
many issues in this country to pay attention to, so many 
disasters unexpected.
    I want to make sure we don't lose sight of some disaster 
assistance that was requested in New York State after some 
flooding in the spring. I can give you a copy today, again, 
because we mailed this out. This is from our New York 
delegation asking for assistance. If you could please commit to 
reevaluating Governor Cuomo's request to reverse your denial of 
assistance to areas that were flooded in the spring, because I 
still have farmers that are never going to be whole again, and 
my economy relies on my farmers planting, harvesting, getting 
it to market. So If you could take another look at that as 
well.
    Again, you have probably got the toughest job in America 
with all of the different disasters that come your way, whether 
it is the fires in Texas; who would have thought Upstate New 
York would be victim to an earthquake, a hurricane, a tornado, 
all within a couple of weeks?
    So we are living in what seems like unprecedented times. 
But I hope that you are up to the task. I am sure you are. If 
there is anything we can do to assist you, we are partners in 
protecting the American people. Thank you.
    Mr. Fugate. Thank you, ma'am.
    Mr. Bilirakis. Thank you. The gentlelady yields back?
    Ms. Hochul. I am sorry. I do.
    Mr. Bilirakis. If it is all right with Administrator 
Fugate, I think this is such an important topic, we have time 
for a second round. So I would like to begin. I will recognize 
myself for 5 minutes.
    As part of your effort to engage in the whole community--
and I commend you for that, Administrator--you have included a 
rotating seat for the private sector in the National Response 
Coordination Center. How is the initiative working?
    Mr. Fugate. It is working very well. Not only are we giving 
the private sector a seat in there, we are really looking at 
some of the things that will speed up our ability to see what 
they see, such as really getting the point of the major big box 
stores, recognizing they don't provide everything but they are 
a good indicator of how areas are impacted, giving us live data 
on store openings and closures so we can see what is going on.
    We first really saw this when we were dealing with the ice 
storm earlier this year. It is kind of hard to remember that 
far back, we had this threat of an ice storm across the central 
United States and moving towards the Northeast. But they were 
literally giving us updates on the store statuses in real time 
as we were making decisions about where we may need generator 
stuff.
    We saw this again in Puerto Rico when Hurricane Irene hit. 
We were getting lots of reports of flooding, but they were able 
to come back and give us statuses of drugstores, hardware 
stores, grocery stores, that pretty well told us that the bulk 
of the island primary services were intact and our focus was 
really on flooding in some of the higher elevations where some 
of the towns were destroyed. That real-time information made us 
more comfortable with the decision that the Governor's request 
was not for more resources but focus on the recovery so we 
could shift those attentions now to the East Coast, to the 
United States. Without that information, we would have been a 
little bit concerned that we didn't have all of that 
information; and what if we didn't send the supplies, would we 
get behind? But because the retailers were assuring us they 
were up, they were running, the ports are up, the airport is 
up, that information coupled with the Governor's request made 
sense and we were able to shift our resources now to the East 
Coast.
    Mr. Bilirakis. As a follow-up, the emergency management 
officials I have spoken with see this engagement with the 
private sector as a very positive step. However, they have 
expressed concern about the PS-Prep Program. Their concern: 
While FEMA has a structure in place for the program, it has yet 
to create an incentive for participation with the private 
sector.
    Recognizing that PS-Prep is a voluntary program, what can 
be--what can we do to better engage the private sector and 
encourage them to take steps to enhance their preparedness?
    Mr. Fugate. To be honest with you, Mr. Chairman, I think 
when that program was starting out, we were looking at the 
private sector as getting a certification to be able to sit at 
the table. In some ways what we found was that there should be 
an entry requirement to be a part of the team. They are doing 
it already. We need to work closer.
    I think PS-Prep is going through an evolution and I will 
ask my staff to come back to you with more specifics. But I 
think one of the things that I have learned in this process is 
oftentimes when we start programs with good intentions, we find 
that we maybe are not going the way we thought we were going 
and we need to reassess. I think this is a continuing area: How 
do we reassess that program to get better participation and, at 
the same time, recognizing there may be some entities that will 
not participate there but are still wanting to be part of the 
team when we respond and recover from disasters?
    Mr. Bilirakis. I think if you have some suggestions for us 
as well, we can work with our constituents. I think that that 
would be very beneficial as well.
    I am interested in your assessment of National Level 
Exercise 11. What are the main lessons learned from the 
exercise? How are we sharing these lessons with participants at 
the State, local, and Tribal and private-sector levels?
    Mr. Fugate. That is a large exercise, and in the short time 
I have, I would like to give you some written responses to 
that. But I want to point out one thing I really haven't had a 
chance to talk about in these committees but I think has been a 
tremendous improvement in our capability, and that is the 
resolution of the issue of applying Federal forces to a State, 
particularly Title 10 Active-Duty forces, when the Governor has 
their National Guard on State Active-Duty and running the 
realities of: How do you manage that?
    Under a program that was initiated by Congress forming the 
Council of Governors to work with the National Guard and 
Governors as well as with the Department of Defense, we now 
have what we call dual-status commanders. This is a program 
that has been enthusiastically supported, I must say, by 
NORTHCOM and the Department of Defense, to take National Guard 
flag officers--and almost now all the States train them as 
dual-status command, where they can now command at the request 
of the Governor and the designation by the Secretary of Defense 
and the President, command both State Active-Duty and National 
Guard and Title 10 forces under one commander, not having to 
have two separate joint task forces.
    In our National Level Exercise, this showed that the 
ability to bring in Federal forces in support of the State, 
with their National Guard activated into Active Duty, minimize 
the confusion and the duplicity of having a multiple joint task 
force operating in the same State. So I think this is one of 
the things that we were able to look at in exercise, but I 
think it is one of the huge unheralded milestones we have in 
this country of resolving, I think once and for all, the issue 
of: How do we bring Active-Duty forces to the Governor in a way 
that does not duplicate or replicate what they are doing 
through their National Guard and work as one team?
    Mr. Bilirakis. Very good. Thank you. All right. I now 
recognize Ranking Member Richardson for 5 minutes.
    Ms. Richardson. Thank you, Mr. Chairman. Mr. Fugate, I need 
to come back to the EAS test. First of all, I want to clarify. 
Does the EAS test include all the territories and all the 
States? Everyone or just----
    Mr. Fugate. My assumption is yes, because this will be an 
activation of the emergency alert notification which will be a 
Presidential message and a National message. So my 
understanding, it should go out through all of the systems, but 
I will verify that.
    We have done two separate State tests in Alaska to test the 
system. But this will be the first time we will be activating 
it across the entire country, and I will verify that it will go 
to the territories.
    Ms. Richardson. If it does not, are you committed to 
including them?
    Mr. Fugate. Absolutely. If it isn't, it has more to do with 
the legacy systems than it is by any intention. This is one of 
the things we are hoping as we move to IPAWS, to get past some 
of the legacy limitations in our existing infrastructure.
    Ms. Richardson. Okay. Then when we were talking about 
American Samoa and their alert system test, was this one and 
the same, or were they having a separate test?
    Mr. Fugate. This was a separate test of certifying the 
outdoor warning system. This was a key component that, when the 
tsunami warning center issues the warnings, there was no 
outdoor warning systems in American Samoa. It was a testing of 
that system.
    Ms. Richardson. Has that already occurred?
    Mr. Fugate. I will have to get back to you. I know they 
were doing it, but I don't know if they completed the test and 
signed off on that. I just really don't have that at my 
fingertips.
    Ms. Richardson. Okay. If you could also supply us the 
results of that.
    Back also to the EAS. As I said, I don't believe it 
includes a pass or fail. In particular, could you tell us how 
the data will be gathered, what will be the gaps in performance 
identified and improvements to the system made, and is there a 
specific time line that you have associated with?
    Mr. Fugate. The actual test itself will be looking at all 
of the primary entry points for the system, activate the local 
primaries, and how many of those stations that are supposed--
one of the things about the Emergency Alert System, it is 
always voluntary except when a Presidential notification 
occurs. That is why we don't have a test capability. This is 
the only one that will trip everything, because it is designed 
to automatically engage all of the pre-transmit functions. So 
the test will be: How far did it go and where were their gaps 
and breaks in the chain of notification? This goes to 
everything. It actually starts a chain of primary entry points 
and the local primary points that then set off their tones, 
which will then activate other receivers. Because this is the 
one function that was built in that--broadcasters are optioned 
on everything else and they can set their equipment to manual 
or delay. This will be the first time we will see if all of the 
systems go through.
    So the first part is did that happen and were there breaks? 
The other part will be, as it went out, did we see any 
difficulties? We already know of some issues that are germane 
to the legacy systems that will be a challenge for this.
    Ms. Richardson. Okay. I apologize. I have got 2 minutes. 
Will your assessment include improvements that need to be made?
    Mr. Fugate. Yes.
    Ms. Richardson. Just that. Then do you have a specific time 
line when you anticipate being able to give us this report?
    Mr. Fugate. I will defer back to Damon Penn to get an 
update of what we expect to get back on that and when we would 
have a report.
    Ms. Richardson. Okay. I have got three really quick 
questions, and he is going to give me a little more time. One 
of the issues that I found in American Samoa was that they owed 
prior money to the Government and therefore, because of that, 
were hesitant of extending on additional services beyond the 
initial, whatever it was, 72 hours. Have you established a new 
process or have we had a discussion of how to deal with maybe 
States or territories that might have a past-due situation?
    Mr. Fugate. The issue of those that still owe money from 
previous disasters or previous grant programs is one we are 
looking at of the recoupment process there, and whether or not 
and how we go forward. We know it is going to be a challenge 
there in American Samoa. There are also some other territories 
that are facing the same situation. I will respond back in 
writing. But it is again similar to other recoupment processes 
where, if the money under IG or General Accounting Offices, 
finds that money is owed back, we have to look at a collection 
process which either will offset future costs or have to be 
tied to some other reduction in funding.
    Ms. Richardson. Okay. So if you could supply this committee 
of who currently owes, how much they owe, what is the process 
of paying it back.
    Last two questions. Twice now we have had colleagues who 
have brought forward a concern about the UASI grants and 
whether the funding should be in tiered levels and so on. Could 
you please share your particular feedback of why you think it 
should stay the same or change?
    Mr. Fugate. Well, again as we presented the options to 
Secretary Napolitano, she made the decision that we would 
reduce funding, could no longer continue to fund all of the 
cities on the list, and needed to focus on those that were in 
the top tier based on a variety of information we used to make 
those decisions. Given the amount of funding, I think that will 
be the continued recommendation as we present to her this year; 
as we look at this year's appropriation is, with reduced 
funding, the decision made to fully fund those top-tiered 
cities versus reducing funding across the board?
    Ms. Richardson. Okay. So if I am hearing you correctly, if 
we were not to reduce funding, which some folks on this 
committee have advocated for, we might have a better ability to 
assist all the cities?
    Mr. Fugate. That would be an option to look at, yes, ma'am.
    Ms. Richardson. Okay. My last question is, for full year 
2012, the proposed level of funding for first responders is 
less than half the amount that Congress appropriated 2 years 
ago, in full year 2010. The Congress appropriated a total of 
$4.17 billion in grant funding for first responders. Further, 
if H.R. 2017 is enacted by Congress, the grant funding will 
have been reduced by almost 60 percent within two fiscal 
cycles. How do you plan on addressing these cuts and to ensure 
that the regions have the adequate resources?
    I want you to know I am asking you this on the record and 
intend upon bringing it back up when the committee then discuss 
things like cutting at these, what I would believe, very 
unreasonable levels.
    Mr. Fugate. Well, the short answer is that with these 
reductions of fundings, we are looking at what we can do to 
maintain current capabilities that have been built with the 
dollars, and putting emphasis on those items and teams that are 
more critical to the National interest and of National 
capabilities. Which means not everything is going to be funded, 
and there may have to be decisions about what cannot be 
supported, but looking at things that are really designed to be 
of a National interest and have capability to support the 
National threats.
    Again, as we saw with the mutual aid in the past disasters, 
one of the things we know is making sure that regional mutual 
aid through State-directed responses is the most effective use 
of these resources. So, looking at how we can leverage more 
regional response capabilities with fewer dollars.
    Ms. Richardson. So if you could provide to this committee 
what, in light of the proposed cuts, what you view would fall 
within the National realm of being of National interest and 
what potential things could be cut in the event we have to 
operate at the levels you have been given?
    Mr. Fugate. We will do that.
    Ms. Richardson. Thank you, sir.
    Mr. Bilirakis. Thank you. I recognize the gentleman from 
Mississippi, the Ranking Member of the full committee, Mr. 
Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman. Mr. 
Fugate, will you comment on your efforts to get FEMA to start 
buying locally in disasters and whether or not that effort has 
rendered a positive result?
    Mr. Fugate. Yes, sir. Early on when I got to FEMA, one of 
the things we found was that we used a lot of National 
contracts, kind of one-size-fits-all. It is easy for us to 
administer. But it tended to result in us buying resources and 
bringing things from outside a disaster area when they were 
already there in the community.
    After several disasters, particularly what I observed in 
Haiti, I realized that one of the flaws in our system by doing 
that is we are not putting any money back in the local economy 
when it is at its greatest need. So we adopted a philosophy of 
buying local and hiring local, whenever possible, to put money 
back in the local community, in many cases at no real 
additional cost to the taxpayers, and sometimes a savings 
because it is faster and it is right there.
    I would say right now it has been mixed, but where it has 
worked, I think it is significant in that we can go to a local 
computer store, we can go to a local vendor, we can go to a 
local print shop, and we buy services for people that are in 
the area that are trying to get their lives back together. What 
I know from all of the things I have seen, small businesses are 
most vulnerable. If they don't get work quickly, they don't 
survive. I figure as best we can, if we can buy local services 
wherever possible, we will benefit not only the community 
itself, but I think ultimately speed the recovery.
    Mr. Thompson. Thank you. There have been some Title 6 
issues in FEMA on an on-going basis. Provide us with your 
efforts to resolve many of these issues, please.
    Mr. Fugate. Well, first of all, it comes back with--one of 
the things we are looking at, we have a remediation going on in 
Florida. What we have worked with with the IG on this one, I 
think what we are going to do with the State is go back and do 
a remedial training and some pilot, and provide them additional 
grant guidance oversight as they are issuing the grants for 
Title 6 compliance. We also put into our office fraud 
investigations, the Title 6 functions for investigating those 
complaints because, again, we felt this needed to be more 
focused on those complaints when they came up.
    So I think it is two parts. One is the enforcement piece of 
it where we do have the complaints and the investigations and 
determine if it needs to be referred to the IG. The other part 
of it is the education to make sure on the front end, in 
providing grant guidance, people understand the requirements of 
Title 6 and are complying with that, particularly these large 
projects.
    Mr. Thompson. Thank you. Can you provide the committee with 
some current statistics on EO complaints and what have you, say 
over the last 2 years? Not now. Just come back to us with it 
and just--to give us how many have been resolved, how many are 
on-going, this kind of thing, and whether or not you have 
looked at that situation and whether or not you will recommend 
changes, or what have you, going forward. I think that would be 
helpful.
    With respect to recoupment, I couldn't let you get away 
without recoupment, the issue of recoupment. We are still, I 
guess weekly, getting dinged by constituents who are receiving 
letters.
    Two questions. To what extent can other constituents expect 
these letters to come? But on the other hand, especially for 
the Katrina victims, a disproportionate number of people have 
been misplaced. Bad addresses, things like that. I would like 
to see whether or not, when letters go out and those 
individuals were moved to Houston from New Orleans and 
subsequently somewhere else, that basically through no fault of 
their own, but obviously from an address standpoint, you still 
have them in Houston.
    I would not want somebody who is really resettled, getting 
themselves back together, and now all of the sudden because 
they didn't get a letter, they would in fact be breaking the 
law. If you come up with a solution for that; if not, when you 
could, it would be very helpful to people like me who have 
constituents getting those letters.
    Mr. Fugate. Yes, sir, there is going to be more letters. 
That is an absolute fact. There is still a lot more to go out 
from Katrina and Rita from recoupments. We send the letter to 
the last known address. When that letter comes back, what do we 
do? I have asked staff, and what they briefed me on--and I will 
provide this in writing--is we have a process with a third 
party to try to track down any additional financial records to 
try to locate that person.
    One of the concerns I know that was raised was: When would 
penalties and interest kick in and when do you refer them to 
Treasury for collection? That is an area where I don't have an 
exact time line because I don't know what we do as far as how 
long it takes for us to go through the due diligence in trying 
to locate them. It is generally because they are not responsive 
or we have exhausted our ways of locating them, that they would 
actually get referred to Treasury to see if they can recoup 
there.
    As you point out when you send a letter to them, the first 
step is to see if they are going to appeal that, if there is 
more information that was lacking in the initial application 
that may mitigate that, or they can apply for forgiveness as 
they don't have a financial ability. But I have asked staff. We 
do use a third party to try to track folks down. What I don't 
know is what is that time frame that we would go before we 
would say we are unable to serve this letter or we are not 
getting a response, that it would go to Treasury and start 
accruing interests and penalties.
    Mr. Thompson. Thank you. I yield back.
    Mr. Bilirakis. Thank you. I appreciate it.
    I have a couple of questions and then we will finish up. 
Thanks for your patience. I really appreciate it.
    With regard to mitigation, I know you believe in that 
strongly, but I believe--and that is why I filed my bill, to 
encourage businesses and residential owners to rebuild, 
mitigate of course. But I feel that maybe the Federal 
Government is just encouraging folks and this is all we have--
the authority we have is to basically rebuild the way it was 
before instead of building stronger and better. That way the 
buildings and structures are more resilient. Comment on that, 
how we can improve things with regard to mitigation.
    Mr. Fugate. I found both as a State and now as a FEMA 
administrator that I oftentimes put a lot of emphasis under the 
Stafford Act, under the section--it is just a section number. 
It doesn't really mean anything to anybody else. But there is a 
part of the Stafford Act that says if you have got damages, you 
have got a public or eligible nonprofit and you have got 
damages and we are going to give you money to repair it, we 
also need to look at does it make sense to build it back better 
to reduce future damages. Under that section we look at things 
such as a cost-benefit analysis that says we realize the 
building code may be for 110-mile-an-hour roof, but if you got 
wiped out by a hurricane and we build this roof back at maybe, 
say, 130, 140 because it is a public safety building, or 
whatever that is appropriate, and then that building survives 
the next time, is that not a good investment? So under the 
Stafford Act of section 406, this is money that is tied to the 
actual damages.
    We have another part of that program called section 404, 
which provides an overall percentage of funds to the State 
afterwards for mitigation, but it doesn't have to necessarily 
be tied to damaged properties, which may allow them to mitigate 
other threats. Particularly with some of the flooding we have 
seen, we know that many States and local communities will be 
looking at those additional funds of how to reduce future flood 
loss.
    Tell you what, Mr. Chairman. We saw a lot of areas where 
they have done things such as buyouts that in previous years 
had flooded severely, that had much less impact, even though 
they received record floods. We have seen elevation work. We 
have seen safe rooms work. So again, it is one of those areas 
that is important.
    But the problem with these programs is they are always 
after we have had a disaster. I think the greater mitigation 
actually comes back to States that are willing to develop and 
implement, as we did in Florida, building codes appropriate for 
the hazards, and the tremendous difference that made in homes 
built prior to that unified building code. The performance in 
the 2004 and 2005 hurricanes was so dramatic, you could 
literally fly over neighborhoods and almost tell when the roof 
was built by what was standing and what was damaged.
    So again, I put a lot of emphasis on if we are going to 
spend Federal tax dollars to fix something, build it back 
better. An example was down in Charlotte County. They lost all 
seven of their fire stations. The building code only required 
it to be built back for the wind hazards but the reality was 
they got hit with a Category 4 hurricane, and I said it doesn't 
make sense that we are going to have to take public safety 
buildings and only build them back to the code. We really need 
to go code-plus so they survive the next hurricane, so the fire 
crews aren't losing the equipment, and the stations are there 
to respond in the aftermath. So we are very much supportive of 
continuing that practice where it makes financial sense.
    Mr. Bilirakis. Very good. Exactly. It makes financial sense 
as well.
    One last question. Again, PKEMRA required FEMA to develop 
and implement a training program for staff on the prevention of 
waste, fraud, and abuse of Federal disaster relief assistance. 
Comment on that. What is the status of that program?
    Mr. Fugate. We have been breaking that into training--one 
of the areas we focused on very early was our COTARS through 
our chief procurement office, as well as looking at overall 
training for folks to recognize in our National processing 
centers when people call in. There are some steps we take to 
try to rule out bogus addresses and things like that, to 
minimize that, but also things to look for that would raise 
suspicion. Where we do find instances of fraud in individual 
assistance, we refer those for investigation. Where we find 
cause, we refer it to the IG.
    But I think what we have been trying to do is convince 
people we can be fast and not have the kind of abuse to the 
system we saw in previous disasters. But that means you have 
got to change how you look at things and build this into their 
front-end. You can't bolt it onto the end and try to capture 
it.
    Our most recent audit that we got from the outside auditors 
on our error rate for IA went from about the high of Katrina, 
which is an outlier, because it was just an extraordinarily 
large storm, a double digit, down to a less than 1 percentage 
point error. But we continue to look at this, of how do we 
minimize the error rate without putting an undue burden of 
people applying for assistance, but then also look at 
everything from our contracts, how we do our business, how we 
proceed to do our business. We will be more than happy, sir, to 
provide you an update. We have already had another request very 
similar, what all these activities are and how we are doing 
that.
    Mr. Bilirakis. Thank you very much. That will conclude the 
hearing. I want to thank you for your testimony today. I want 
to thank the Members for their questions. The Members of the 
subcommittee may have--they will have some additional questions 
for you. I am sure you will be able to respond in writing, 
Administrator. We ask that you respond, of course. The hearing 
record will be held open for 10 days.
    Of course, without objection, the subcommittee stands 
adjourned. Thank you very much.
    [Whereupon, at 11:19 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

   Questions From Ranking Member Laura Richardson for W. Craig Fugate

    Question 1. Please inform the committee whether there is a specific 
Federal full-time equivalent responsible for the implementation of the 
disability coordination program in each of the ten regional offices and 
what percentage of their duties is made up of these responsibilities? 
If they are assigned additional responsibilities outside of the 
disability coordination portfolio, please provide the percentage of 
these additional duties.
    Additionally, per the administrator's testimony, provide in writing 
the full accounting of the total staffers assigned to the Office of the 
Disability Coordinator and any additional resources shifted to the 
mission of the Office.
    Answer. Response was not recieved at the time of publication.
    Question 2a. Please describe the current Emergency Alert System 
being used in American Samoa.
    Has the current system passed all testing and contain the necessary 
requirements to ensure that it is certified?
    Answer. Response was not recieved at the time of publication.
    Question 2b. If the warning system for American Samoa has not yet 
been certified, why has not been certified and when does FEMA expect 
the system to be complete?
    Answer. Response was not recieved at the time of publication.
    Question 3. At the subcommittee's July Hearing on Emergency 
Communications witnesses from the Emergency Management community 
identified a need to increase the level of training related to the 
emergency alert system. What steps has FEMA taken to increase IPAWS 
training for emergency managers?
    Answer. Response was not recieved at the time of publication.
    Question 4a. In light of the November 9, 2011 test of the Emergency 
Alert System (EAS), please provide the committee those States and 
territories that will be participating and their level of capacity?
    Answer. Response was not recieved at the time of publication.
    Question 4b. Also, how will the data be collected and evaluated?
    Answer. Response was not recieved at the time of publication.
    Question 4c. What is the time line for this assessment?
    Answer. Response was not recieved at the time of publication.
    Question 5. What is the status of the outdoor warning emergency 
alert system for American Samoa? Has this system been tested and if so 
what was the outcome? Please include how the data will be gathered, 
gaps in performance discovered from the test, the affect of any 
improvements made to the system and the time line for all remediation 
of problems?
    Answer. Response was not recieved at the time of publication.
    Question 6. Please provide the committee a list of those States or 
territories that currently have outstanding debts to FEMA and include 
how much they owe; the process FEMA uses to collect these funds; and 
the particular States and territories unable to receive Public 
Assistance Grants due to these debts.
    Answer. Response was not recieved at the time of publication.
    Question 7. In light of proposed funding cuts to FEMA, please 
provide the committee what programs and responsibilities must continue 
to receive level funding and possible programs and responsibilities 
that could be eliminated in the event you are forced to operate at the 
current funding levels recommended for fiscal year 2012.
    Answer. Response was not recieved at the time of publication.
    Question 8. Describe FEMA's progress with the Disaster Closeout 
Process allowing FEMA to close out and de-obligate funds from previous 
disasters that are currently still on FEMA's financial reports. Please 
provide the committee with a status report on these efforts including 
the number and dollar amount affiliated with both open and closed 
disasters.
    Answer. Response was not recieved at the time of publication.
    Question 9. Please provide the committee the current statistics on 
the number of Title VI complaints reported against FEMA, the number of 
complaints that have been resolved, the number of complaints 
outstanding, actions taken on the complaints for the previous 3 years. 
Also, include any recommended changes or possible improvements to the 
current process.
    Answer. Response was not recieved at the time of publication.
    Question 10. What is the status of the FCC program to create ``next 
generation 9-1-1'' that allows individual to text emergency requests to 
law enforcement and emergency management calling centers?
    Answer. Response was not recieved at the time of publication.
    Question 11a. There is concern that the Office of Disability 
Integration and Coordination lacks the adequate resources to carry out 
its responsibilities under the Act.
    The Office of Disability Integration and Coordination has existed 
for approximately 2 years, with a budget of about $150,000. What 
outreach activities have the Office initiated in that time under its 
current budget?
    Answer. Response was not recieved at the time of publication.
    Question 11b. How many staff members are allocated to the Office of 
Disability Integration and Coordination? Is this an adequate number of 
staff to carry out the Office's mission?
    Answer. Response was not recieved at the time of publication.
    Question 11c. Do you plan to request additional funding for the 
Office in the fiscal year 2013 budget?
    Answer. Response was not recieved at the time of publication.
    Question 12a. As you know, FEMA is currently responsible for 
administering all DHS grants, including grants for programs falling 
outside the agency's expertise.
    How does the expenditure of FEMA's resources on the administration 
of all DHS grants affect its ability to carry out its core mission 
(i.e.: preparing, protecting, mitigating, responding, and recovering 
from terrorist attacks)?
    Answer. Response was not recieved at the time of publication.
    Question 12b. Is the administration of all DHS grants the most 
effective use of FEMA's limited resources?
    Answer. Response was not recieved at the time of publication.
    Question 13a. As you may know, I represent a large number of 
constituents with family connections to Samoa so the 2009 tsunami in 
American Samoa was a great concern for me. Too many people told me that 
their families weren't warned in time to effectively prepare. A fully 
implemented IPAWS, accessible to all populations, system would have 
provided adequate warnings.
    At our July hearing on Federal Alert and Warning Efforts, witnesses 
identified a need to increase IPAWS training for emergency managers as 
a critical area to address. What is the status of FEMA's efforts to 
increase training for emergency managers on IPAWS?
    Answer. Response was not recieved at the time of publication.
    Question 13b. What efforts have been made to ensure that emergency 
alert systems will effectively warn vulnerable populations, including 
individuals with hearing, vision, and other functional disabilities, 
the elderly, and the poor?
    Answer. Response was not recieved at the time of publication.
    Question 14. As you may know, my district is home to a very large 
Samoan population and I am particularly interested in the support we 
provide to American Samoa, as well as the other Pacific islands. Two 
years ago, the a National Academy of Public Administration Report 
identified ``distance, time, and training'' and as major obstacles to 
achieving preparedness goals in a territory determined to be the least 
prepared in its Region. What steps are you taking to ensure the Pacific 
Islands are receiving the training, funding, and attention they need to 
properly prepare for and respond to a disasters?
    Answer. Response was not recieved at the time of publication.
    Question 15a. As you know, FEMA has relied predominately on 
temporary housing units and rental housing to provide disaster housing 
alternatives. In American Samoa, there was a lack of rental housing and 
it was not possible to provide temporary housing units, FEMA instituted 
a construction pilot program, which raised unique concerns regarding 
the objective and of FEMA's emergency housing programs.
    What efforts has FEMA made to identify disaster housing options to 
accommodate a range of emergency situations, including earthquakes, 
floods?
    Answer. Response was not recieved at the time of publication.
    Question 15b. What efforts has FEMA made to identify disaster 
housing options for islands or other remote areas?
    Answer. Response was not recieved at the time of publication.
    Question 16. The purpose of the National Disaster Recovery 
Framework (NDRF) is to assist State and local developing a plan for 
recovery from a major disaster before a disaster strikes. Since the 
final NDRF was released only a few weeks ago, how is FEMA working with 
local communities to communicate the need for planning in both the 
initial response to a disaster and through the long-term recovery 
process?
    Answer. Response was not recieved at the time of publication.
    Question 17. In the past FEMA has worked with the Corps of 
Engineers to contract for the installation and maintenance of temporary 
housing units. What steps does FEMA take to ensure that individuals who 
install THU's are licensed and certified to install manufactured homes 
in accordance with the HUD Manufactured Home Installation Regulations?
    Answer. Response was not recieved at the time of publication.
    Question 18. In light of drastic cuts to FEMA's budget and the 
needs that have arisen from the increasing number of disaster 
declarations, what steps is FEMA taking to ensure that 10 Regional 
Offices will have the necessary capacity and resources?
    Answer. Response was not recieved at the time of publication.
    Question 19a. Serious concern has been expressed with FEMA's 
recoupment of disaster funds provided to those affected by Hurricanes 
Katrina, Rita, and Wilma. While the committee understands that these 
steps are mandated by law I also want to ensure that the process 
doesn't cause further suffering for those already working hard to put 
their lives back together.
    What steps is FEMA taking to ensure that those who meet hardship 
criteria receive the counsel they need to have their payments forgiven?
    Answer. Response was not recieved at the time of publication.
    Question 19b. What is FEMA's process when a recoupment letter 
cannot be delivered?
    Answer. Response was not recieved at the time of publication.
    Question 20. The committee remains concerned that the Grants 
Directorate does not have the staff and resources to optimally manage 
the full suite of DHS grant programs. In light of the dramatic cuts 
that have been made to FEMA Grant Programs and that the Grant Program 
Directorates Budget is based on the amount of grant dollars, what steps 
is FEMA taking to ensure that the directorate is still able to properly 
disburse grant funding with a much smaller staff?
    Answer. Response was not recieved at the time of publication.
    Question 21a. On October 7, 2011 FEMA released the first draft of 
the National Preparedness Goal, which describes the core capabilities 
that States and locals must develop and sustain in order to prevent, 
protect against, mitigate, respond to, and recover from numerous 
threats. But States, locals, and first responders have stated that the 
cuts to preparedness grant programs have severely hindered their 
ability to maintain the necessary security and resilience posture.
    How will FEMA assess how cuts to preparedness grants will affect 
State and locals ability to build and sustain the core capabilities 
needed to protect the Nation?
    Answer. Response was not recieved at the time of publication.
    Question 21b. What comments have been received from States and 
urban areas concerned about the erosion of capabilities?
    Answer. Response was not recieved at the time of publication.
    Question 21c. If so, how will this affect the Nation's ability to 
respond to man-made and natural disasters?
    Answer. Response was not recieved at the time of publication.
    Question 22. Fighter fighters play an important role in responding 
to numerous emergencies and leading of the joint response efforts 
through the use of National Incident Management System. Unfortunately, 
funding for fire fighters are being drastically cut across the country. 
Based on fire-fighters current capabilities, how will continued cuts 
erode our preparedness to responding to natural disasters such as 
hurricanes, tornadoes, and wildfires?
    Answer. Response was not recieved at the time of publication.
    Question 23. FEMA has assumed great responsibility for managing 
several grant programs. It could be argued that FEMA's grant management 
duties could take focus away from more important preparedness, 
mitigation, response, and recovery duties and would be better managed 
at DHS headquarters. What is FEMA's opinion of the assessment that 
grant management duties should be done at DHS headquarters instead of 
FEMA?
    Answer. Response was not recieved at the time of publication.
    Question 24. PKEMRA requires the administrator to perform periodic 
National level exercises that ``evaluate the capability of Federal, 
State, local, and Tribal governments to detect, disrupt, and prevent 
threatened or actual catastrophic acts of terrorism, especially those 
involving weapons of mass destruction.'' In recent years the National 
Level Exercises (NLE) have covered devastating hurricanes along our 
Southern Border and a catastrophic earthquake along the New Madrid 
Seismic Zone. Please provide a copy of reports that show the committee 
specific examples of lessons learned from these exercises and how FEMA 
has altered its response and recovery plans to include these new 
developments.
    Answer. Response was not recieved at the time of publication.
    Question 25. DHS's Nation-wide Plan Review of emergency operation 
plans found that only 10 percent of State and 12 percent of urban area 
evacuation planning documents sufficiently address assisting those who 
would not be able to evacuate on their own. What technical assistance 
is FEMA providing to States and local governments to improve their 
plans for mass evacuations, especially assisting those most in need?
    Answer. Response was not recieved at the time of publication.
    Question 26. Regional offices are continuing their efforts to 
staff-up to carry out the authorities delegated to them last year. What 
steps are being taken to ensure all of the ten Regions are using 
standardized hiring criteria?
    Answer. Response was not recieved at the time of publication.
    Question 27. This year's severe storms and flooding have tested 
many improvements made by PKEMRA to FEMA's ability to manage response 
and recovery efforts from multi-State, multi-region events. Please 
provide the committee examples of these changes and explain what 
efforts, if any FEMA has made to include the private sector in 
administering resources to affected areas?
    Answer. Response was not recieved at the time of publication.
    Question 28. The National Commission on Children and Disasters 
conducted a comprehensive study to examine and assess the needs of 
children as they relate to preparation for, response to, and recovery 
from all hazards including natural disasters, acts of terrorism, and 
other man-made disasters. Their findings emphasize the need to 
distinguish planning that addresses the needs of children from the 
larger ``special need,'' ``at risk,'' or ``vulnerable'' population 
categories frequently seen in Federal, State, and local disaster 
planning documents. What efforts can be taken to enhance the Nation's 
ability to meet the needs of children in disasters?
    Answer. Response was not recieved at the time of publication.
    Question 29. The vast diversity of our Nation requires that 
preparedness outreach is inclusive to the needs of culturally diverse 
communities. Emergency plans should be developed with an understanding 
of communities' distinctive needs, particularly as they relate to race/
culture, immigrant status, language, and literacy. What has FEMA done 
to promote outreach in culturally diverse communities and to encourage 
State and local emergency management agencies to do the same?
    Answer. Response was not recieved at the time of publication.
    Question 30. Federal law now requires that State and local 
governments with mass evacuation plans incorporate special needs 
populations into their plan; however, this requirement does not 
necessarily ensure the incorporation of all disadvantaged populations 
due to the fact that State and local governments do not share a 
consistent definition of special needs. FEMA has begun to utilize the 
term ``access and functional needs'' to replace ``special needs''. How 
will this new terminology help with ensuring State and locals fully 
integrate vulnerable populations into their preparedness plans?
    Answer. Response was not recieved at the time of publication.
    Question 31. What efforts have been made to coordinate with local 
entities, such as local governments, universities, and private 
business, in implementing IPAWS?
    Answer. Response was not recieved at the time of publication.
    Question 32. What will happen in rural area where people do not 
have broadband and cannot access internet protocol?
    Answer. Response was not recieved at the time of publication.
    Question 33. The FCC requires that EAS messages be delivered in 
both audio and visual and the accessible formats are so expensive they 
can be inaccessible and seen as unnecessary to most of these citizens. 
What are your plans on alerting these individuals at affordable costs?
    Answer. Response was not recieved at the time of publication.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
